OIG Investigative Reports, Press Release: Bloomsburg, PA May 03, 2010 - Bloomsburg University of Pennsylvania Agrees to Pay Civil Settlement of $38,000 to the U.S. Government and Establish New Internal Operating Procedures
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
U.S. Department of Justice
United States Attorney
Middle District of Pennsylvania
William J. Nealon Federal Building
Suite 311
235 N. Washington Avenue
P.O. Box 309,
Scranton, PA 18503-0309
(570) 348-2800
Fax  (570) 348-2037 or (570) 348-2830
Ronald Reagan Federal Building
Suite 220
228 Walnut Street
P.O. Box 11754,
Harrisburg, PA 17108-1754
(717) 221-4482
Fax:  (717)  221-4493/ 221-2246
Herman T. Schneebeli Federal Building
Suite 316
240 West Third Street
Williamsport, PA 17701-6465
(570) 326-1935
Fax: (570) 326-7916
May 3, 2010
BLOOMSBURG UNIVERSITY OF PENNSYLVANIA AGREES TO PAY CIVIL SETTLEMENT OF $38,000 TO THE U.S. GOVERNMENT AND ESTABLISH NEW INTERNAL OPERATING PROCEDURES AIMED AT INCREASING ACCOUNTABILITY IN THE ADMINISTRATION OF ITS STUDENT FINANCIAL AID PROGRAM AS A RESULT OF IMPROPER HANDLING OF FEDERAL WORK STUDY FUNDS
Dennis C. Pfannenschmidt, United States Attorney for the Middle District of Pennsylvania, announced today a settlement of potential civil claims against the Bloomsburg University of Pennsylvania. According to U.S. Attorney Pfannenschmidt, beginning in the summer of 2000 and continuing for a number of years thereafter, members of Bloomsburgs administration were aware of the fact that one of their assistant baseball coaches, a student named Walter Watkins, was engaged in the fraudulent acquisition of Federal Student Aid through the Federal Work Study program.  Despite being aware of Watkins conduct, and despite the school's own Director of Financial Aid recommending that over $30,000 be returned to the United States Department of Education, Bloomsburg failed to either report Watkins fraudulent acts or return any improperly disbursed Federal Student Aid funds voluntarily.
As part of this settlement of all potential civil claims arising out of the above conduct, Bloomsburg has agreed to pay the United States the sum of $38,000 in damages and penalties.  In addition, Bloomsburg has agreed to effectuate an extensive series of internal policy changes aimed at increasing the transparency of Bloomsburgs Federal Student Aid program and ensuring that accountability for proper use of Federal Student Aid funding exists at all levels of the schools administration.  These changes include the establishment of new lines of communication between Bloomsburg' President and Director of Financial Aid, as well as the installation of a system to identify and resolve discrepancies in Federal Student Aid related information received by various school offices.  All of these policy changes must be submitted to the United States Department of Education within 180 days.
This settlement follows the 2007 conviction upon guilty plea of Watkins, who was ultimately sentenced to twenty-four months probation and ordered to pay $1,200 in restitution for his role in obtaining Federal Work Study funds to which he was not entitled.
U.S. Attorney Pfannenschmidt noted that, in many ways, the internal changes that Bloomsburg has agreed to undertake are more significant than the financial aspects of the settlement.  He added that, there are few things in life more valuable than a quality education.  With rising tuition costs and a still-recovering economy, the demands on Federal Student Aid programs are greater than ever.  With this settlement agreement, we have taken a significant step towards ensuring that Federal Student Aid funding only goes to those students who are in genuine need of assistance and sent a clear message that institutions of higher learning have an obligation to play an active role in helping us achieve that goal.  U.S. Attorney Pfannenschmidt also thanked Inspector General Kathleen Tighe of the Department of Education and her agents for their hard work and support in pursuing this investigation.
This case was handled by Assistant U.S. Attorney Stephen R. Cerutti, II.
****
Top
Printable view
Last Modified: 05/05/2010
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov